<html>
<title> - PATHWAYS TO EXPLORATION: A REVIEW OF THE FUTURE OF HUMAN SPACE EXPLORATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  PATHWAYS TO EXPLORATION: A REVIEW OF

                 THE FUTURE OF HUMAN SPACE EXPLORATION

=======================================================================



                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2014

                               __________

                           Serial No. 113-82

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PUBLISHING OFFICE
89-411                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                            C O N T E N T S

                             June 25, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     5

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     5
    Written Statement............................................     7

                               Witnesses:

Governor Mitch Daniels, Report Co-Chair and President, Purdue 
  University
    Oral Statement...............................................     8
    Written Statement............................................    11

Dr. Jonathan Lunine, Report Co-Chair and Director, Cornell 
  University's Center for Radiophysics and Space Research
    Oral Statement...............................................    18
    Written Statement............................................    20

Discussion.......................................................    27

             Appendix I: Answers to Post-Hearing Questions

Governor Mitch Daniels, Report Co-Chair and President, Purdue 
  University.....................................................    48

Dr. Jonathan Lunine, Report Co-Chair and Director, Cornell 
  University's Center for Radiophysics and Space Research........    55

            Appendix II: Additional Material for the Record

Written statement submitted by Representative Donna F. Edwards, 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    64


                  PATHWAYS TO EXPLORATION: A REVIEW OF

                OF THE FUTURE OF HUMAN SPACE EXPLORATION

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Welcome to today's hearing entitled ``Pathways to 
Exploration: A Review of the Future of Human Space 
Exploration.'' I will recognize myself for an opening statement 
and then the Ranking Member, the gentlewoman from Texas.
    At a fundamental level, space exploration--the mission of 
NASA--is about inspiration. This inspiration fuels our desire 
to push the boundaries of the possible and reach beyond our own 
pale blue dot.
    When the President cancelled the Constellation program in 
2010, our chance to explore beyond low-Earth orbit was 
significantly delayed. To the dismay of the American people, 
the Administration made it clear that human space exploration 
was not a priority.
    The first human footsteps on the Moon are a distant memory. 
And with the retirement of the Space Shuttle, NASA now pays 
Russia $70 million to transport an American astronaut to the 
International Space Station and back. There is a sense that 
America is falling behind, with our best days behind us. Today, 
America's finest spaceships and largest rockets are found in 
museums rather than on launch pads.
    The President has proposed capturing an asteroid and 
tugging it into lunar orbit for human exploration. But NASA's 
own advisors said, ``it was not considered to be a serious 
proposal.'' Space exploration experts have criticized this plan 
before our Committee. And former NASA officials have called 
into question its merits.
    The Administration's continued focus on costly distractions 
is harmful to our space program and does not inspire future 
generations to go into innovative fields such as science and 
math. However, a distinguished panel of experts has concluded 
that a return to ``extended surface operations on the Moon'' 
would make significant contributions to landing people on Mars. 
The same has not been said for the Asteroid Retrieval Mission, 
which is a mission without a realistic budget, without a 
destination, and without a certain launch date.
    The witnesses before us today represent decades of public 
policy work and scientific investigation. They co-chaired the 
Committee on Human Spaceflight that recently released a report 
entitled ``Pathways to Exploration: Rationales and Approaches 
for a U.S. Program of Human Space Exploration.'' This report 
confirmed that NASA lacks a plan for human space exploration. 
The NASA Authorization Act, which recently passed the House, 
requires a detailed plan for how NASA will land humans on Mars. 
This report offers suggestions on the best way to reach that 
goal.
    Meanwhile, the Obama Administration continues to advocate 
increasing climate change funding at NASA at the expense of 
other priorities such as space exploration. There are 18 
federal agencies that fund climate change research, but only 
one does space exploration.
    The future of America's exploration efforts lead to Mars. 
Just as the first steps on the Moon were by Americans, the 
first flag to fly on another planet in our solar system should 
be that of the United States.
    Great nations do great things. President Kennedy's call to 
America wasn't just about reaching the Moon; it was a reminder 
that we are an exceptional nation. We must rekindle within NASA 
the fire that blazed the trail to the Moon.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    At a fundamental level, space exploration-the mission of NASA-is 
about inspiration. This inspiration fuels our desire to push the 
boundaries of the possible and reach beyond our own pale blue dot.
    When the President cancelled the Constellation program in 2010, our 
chance to explore beyond low-Earth orbit was significantly delayed. To 
the dismay of the American people, the Administration made it clear 
that human space exploration was not a priority.
    The first human footsteps on the Moon are a distant memory. And, 
with the retirement of the Space Shuttle, NASA now pays Russia $70 
million to transport an American astronaut to the International Space 
Station and back.
    There's a sense that America is falling behind, with our best days 
behind us. Today, America's finest spaceships and largest rockets are 
found in museums rather than on launch pads.
    The President has proposed capturing an asteroid and tugging it 
into lunar orbit for human exploration. But NASA's own advisors said, 
``it was not considered to be a serious proposal.'' Space exploration 
experts have criticized this plan before our Committee. And former NASA 
officials have called into question its merits.
    The Administration's continued focus on costly distractions is 
harmful to our space program and does not inspire future generations to 
go into innovative fields such as science and math. However, a 
distinguished panel of experts has concluded that a return to 
``extended surface operations on the moon'' would make significant 
contributions to landing people on Mars.
    The same has not been said for the Asteroid Retrieval Mission, 
which is a mission without a realistic budget, without a destination 
and without a certain launch date.
    The witnesses before us today represent decades of public policy 
work and scientific investigation. They co-chaired The Committee on 
Human Spaceflight that recently released a report entitled ``Pathways 
to Exploration-Rationales and Approaches for a U.S. Program of Human 
Space Exploration.''
    This report confirmed that NASA lacks a plan for human space 
exploration. The NASA Authorization Act, which recently passed the 
House, requires a detailed plan for how NASA will land humans on Mars. 
This report offers suggestions on the best way to reach that goal.
    Meanwhile, the Obama Administration continues to advocate 
increasing climate change funding at NASA at the expense of other 
priorities such as space exploration.
    There are 18 federal agencies that fund climate change research, 
but only one does space exploration. The future of America's 
exploration efforts lead to Mars. Just as the first steps on the moon 
were by Americans, the first flag to fly on another planet in our solar 
system should be that of the United States.
    Great nations do great things. President Kennedy's call to America 
wasn't just about reaching the moon, it was a reminder that we are an 
exceptional nation. We must rekindle within NASA the fire that blazed 
the trail to the moon.

    Chairman Smith. That concludes my opening statement.
    And the gentlewoman from Texas, Ms. Johnson, is recognized 
for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning to all.
    I would like also to welcome our distinguished witnesses to 
today's hearing.
    I make no secret of the fact that I consider National 
Aeronautics and Space Administration to be a critical national 
asset. NASA is a source of technological and scientific 
innovation, an inspiration to generations of young people, a 
catalyst for economic growth, and a very positive symbol of 
American preeminence worldwide, as well as visible 
demonstration of our commitment to international cooperation 
and the peaceful uses of outer space. Simply put, NASA is about 
the future.
    Now it is a fact that NASA's human spaceflight activities 
account for a significant share of the resources invested in 
NASA. We need to ensure that those resources are invested 
wisely. That is why this morning's hearing is so important.
    At Congress' direction, the National Academies undertook a 
comprehensive review of the future of human space exploration 
in the United States. That review has been completed and it is 
now up to Congress and the Administration to decide what we 
will do in response to the findings and recommendations 
contained in its final report.
    This is a report that does not mince words, and for that we 
should be very grateful. As I said when the report was first 
released, the National Academies has provided the Nation with 
an important wakeup call. Their conclusions are clear. We are 
not going to have a human space exploration program worthy of 
this great nation if we continue down the current path of 
failing to provide the resources needed to make real progress 
and failing to embrace a clear goal and pathway to achieving 
that goal.
    As Members of Congress, the ball is in our court and we 
have choices to make. We can choose to continue to argue about 
which President or who in Congress is to blame for the current 
state of our human space exploration program, but I honestly 
hope that we won't. We are where we are and we can't change the 
past. Our focus needs to be on how we proceed from this point 
forward, and I hope that our witnesses can provide some useful 
counsel to us in that regard.
    In addition, we can choose to continue to pretend that a 
business-as-usual approach to our human space exploration 
program will suffice, but I hope we won't do that either 
because the report we are reviewing today makes clear that 
business as usual is not a sustainable approach. Whatever 
resources we are able to invest need to be invested effectively 
and efficiently toward the attainment of a clearly articulated 
goal. We really can't afford to do otherwise.
    Finally, the National Academies' panel makes clear that we 
don't have unlimited time to decide what kind of human space 
exploration program we want for the Nation. It may be tempting 
for some to say that we shouldn't invest necessary resources in 
space exploration until we first fix Medicare or Medicaid, 
eliminate the deficit, or address a host of other major policy 
issues that have been identified by Members at various times. 
It is tempting to use those issues as an excuse for inaction, 
but the National Academies makes a compelling case that we do 
not have that luxury if we want to maintain meaningful human 
space exploration capability in this nation, which I strongly 
believe we do. We should of course address those other issues 
but that should not prevent us from investing in our future in 
the meantime.
    And make no mistake about it, our Nation's human space 
exploration program with an ultimate goal of landing humans on 
Mars is about our future and that of our children and 
grandchildren. Mr. Chairman, the National Academies has done a 
great service by undertaking the study that we will be hearing 
about today. I hope that this morning's hearing will be the 
first step in achieving a revitalized and focused exploration 
program for America. I want to work with my colleagues on both 
sides of the aisle to do just that.
    In closing, I again want to welcome our witnesses and I 
yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning. I want to join the Chairman in welcoming our two 
distinguished witnesses to today's hearing.
    I make no secret of the fact that I consider the National 
Aeronautics and Space Administration to be a critical national asset. 
NASA is a source of technological and scientific innovation, an 
inspiration to generations of young people, a catalyst for economic 
growth, and a very positive symbol of American preeminence worldwide as 
well as a visible demonstration of our commitment to international 
cooperation in the peaceful uses of outer space. Simply put, NASA is 
about the future.
    Now it is a fact that NASA's human spaceflight activities account 
for a significant share of the resources invested in NASA. We need to 
ensure that those resources are invested wisely. That is why this 
morning's hearing is so important. At Congress's direction, the 
National Academies undertook a comprehensive review of the future of 
human space exploration in the United States. That review has been 
completed, and it is now up to Congress and the Administration to 
decide what we will do in response to the findings and recommendations 
contained in its final report.
    This is a report that does not mince words, and for that we should 
be grateful. As I said when the report was first released, the National 
Academies has provided the nation with an important ``wake-up call.'' 
Their conclusions are clear. We are not going to have a human space 
exploration program worthy of this great nation if we continue down the 
current path of failing to provide the resources needed to make real 
progress and failing to embrace a clear goal and pathway to achieving 
that goal.
    As Members of Congress, the ball is now in our court, and we have 
choices to make. We can choose to continue to argue about which 
President or who in Congress is to blame for the current state of our 
human space exploration program, but I earnestly hope that we won't. We 
are where we are, and we can't change the past. Our focus needs to be 
on how we proceed from this point forward, and I hope that our 
witnesses can provide some useful counsel to us in that regard.
    In addition, we can choose to continue to pretend that a 
``business-as-usual'' approach to our human space exploration program 
will suffice, but I hope we won't do that either. Because the report we 
are reviewing today makes clear that ``business-as-usual'' is not a 
sustainable approach. Whatever resources we are able to invest need to 
be invested effectively and efficiently towards the attainment of a 
clearly articulated goal. We really can't afford to do otherwise.
    Finally, the National Academies panel makes clear that we don't 
have unlimited time to decide what kind of human space exploration 
program we want for the nation. It may be tempting for some to say that 
we shouldn't invest the necessary resources in space exploration until 
we first ``fix'' Medicare, eliminate the deficit, or address a host of 
other major policy issues that have been identified by Members at 
various times. It's tempting to use those issues as an excuse for 
inaction, but the National Academies makes a compelling case that we 
don't have that luxury if we want to maintain a meaningful human space 
exploration capability in this nation, which I strongly believe we do.
    We should of course address those other issues, but that should not 
prevent us from investing in our future in the meantime. And make no 
mistake about it--our nation's human space exploration program, with an 
ultimate goal of landing humans on Mars, is about our future and that 
of our children and grandchildren.
    Mr. Chairman, the National Academies has done us a great service by 
undertaking the study that we will be hearing about today. I hope that 
this morning's hearing will be the first step in achieving a 
revitalized and focused space exploration program for America, and I 
want to work with my colleagues on both sides of the aisle to do just 
that.
    In closing, I again want to welcome our witnesses, and I yield back 
the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson.
    We will now proceed to introduce the witnesses. And to 
introduce our first witness, I will recognize the gentleman 
from Indiana, Dr. Bucshon.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Our first witness is Governor Mitch Daniels, the President 
of Purdue University, which has graduated 23 astronauts, 
including Neil Armstrong. Prior to this appointment, he served 
two terms as the 49th Governor of my home State of Indiana. He 
also served as Chief of Staff to Senator Richard Lugar, Senior 
Advisor to President Ronald Reagan, and Director of the Office 
of Management and Budget under President George W. Bush.
    In addition to his strong record of public service, he has 
served as a Senior Executive at Eli Lilly based in 
Indianapolis, among other positions he has held.
    President Daniels earned his bachelor's degree from the 
Woodrow Wilson School of Public and International Affairs at 
Princeton and his J.D. from Georgetown University Law Center.
    Welcome, Governor Daniels.
    Chairman Smith. Thank you, Dr. Bucshon. I will introduce 
our second witness, who is Dr. Jonathan Lunine, the Director of 
the Center for Radiophysics and Space Research and the David C. 
Duncan Professor in the Physical Sciences at Cornell 
University. He is co-investigator of the Juno Mission to 
Jupiter and an interdisciplinary scientist for the James Webb 
Space Telescope. Dr. Lunine has shared and served on committees 
for NASA and the National Science Foundation. He also is a 
member of the National Academy of Sciences and a Fellow of the 
American Geophysical Union and American Association for the 
Advancement of Science.
    Dr. Lunine received his bachelor's in physics and astronomy 
from the University of Rochester and his master's and Ph.D. in 
planetary science from the California Institute of Technology.
    We welcome you both today. It is nice to have two experts 
on the subject present.
    And, Governor Daniels, we will begin with you.

              TESTIMONY OF GOVERNOR MITCH DANIELS,

                 REPORT CO-CHAIR AND PRESIDENT,

                       PURDUE UNIVERSITY

    Gov. Daniels. Mr. Chairman, Ranking Member Johnson, and 
Members of the Committee, we thank you for this opportunity to 
be here on behalf of our Committee on Human Spaceflight 
established in response to the NASA Authorization Act of 2010. 
That act called on NASA to ask the National Academies to review 
the goals, core capabilities, and direction of our nation's 
human spaceflight program. And we released our report on June 
5. Dr. Lunine and I are here to summarize it for you.
    As envisioned in the 2010 act, the Committee membership was 
very diverse, composed not solely or even mostly of experts 
from the human spaceflight community, but instead had members 
from fields as diverse as planetary science, astronomy, 
political science and history, sociology, public opinion and 
polling, economics, human spaceflight experience, international 
peace and security, and others.
    All of us came into this process with open minds and 
brought to the work our divergent points of view. In the end we 
came to the strong consensus that there is a convincing case to 
be made for a continuation of our nation's human spaceflight 
program, provided that the pathways approach and decision rules 
recommended in our report are adopted.
    We did so because we became convinced only after lengthy 
discussion and analysis that a combination of what we labeled 
the pragmatic and aspirational rationales, including the human 
impulse to explore and search for new knowledge in places we 
have never been, justifies the cost, the risk and the 
opportunities associated with sending humans beyond low-Earth 
orbit, and especially for the ``horizon goal'' we identify as 
Mars.
    Getting humans to the surface of Mars will be a daunting 
challenge. It is immensely difficult, probably more so than 
most laymen and even many experts have recognized. Succeeding 
in this endeavor will require, we believe, a very different way 
of doing business than the Nation has been practicing in recent 
decades, particularly as it is likely to take 30 years or more 
to reach the goal.
    As its highest priority recommendation, the committee 
recommends what we call a ``pathways approach,'' requiring the 
government to come to a consensus on achieving a highly 
disciplined set of objectives from which the Nation would not 
deviate over time. A pathway in this scenario would involve a 
predefined set of chosen destinations and milestones, each of 
which would generate technical and engineering requirements 
which, as much as possible, would feed forward into the next 
goal and eventually the horizon goal.
    The committee does not recommend any specific pathway--that 
is for you and for future leadership--but we do note in our 
report that any pathway that could successfully land humans on 
the surface of Mars would require funding above constant 
dollars.
    Pursuing unwaveringly the consensus choice of a pathway 
over the term of multiple decades and the sustained support of 
the advances required by the resulting exploration architecture 
are the keys to a sustainable approach to human spaceflight.
    Mr. Chairman, I can't stress enough how critical it is the 
Nation take a new approach different from the recent way of 
doing business in space. Work needs to begin soon on the most 
difficult and mission-critical technical challenges of any 
pathway to Mars, and out of many such challenges, our committee 
singles out Mars entry, descent and landing; in-space 
propulsion and power; and radiation safety for very special 
emphasis.
    In addition, we are in total agreement that achieving the 
goal of a human presence on Mars will require the United States 
to expand its partnerships with other space faring nations, 
including an openness to working with China, with whatever 
safeguards might have to be put in place. Such international 
partnerships should include much greater cost-sharing than our 
partners have provided up to now, and that can only happen if 
those partners are given the responsibility to provide 
substantial elements to the overall architecture, which they 
will help design and build.
    Finally, Mr. Chairman, we ask that readers of our report 
recognize that the risks of human spaceflight, including the 
risks to human life, are high, and setbacks are inevitable. 
Lives are likely to be lost in pursuit of such a tremendous 
endeavor, and governing statutes will need to recognize that 
grim fact. And while we recognize that many of our 
recommendations will be seen by many as unrealistic or perhaps 
even naive, we would observe that, absent changes along the 
lines we are recommending, the goal of reaching Mars in any 
meaningful time frame is itself unrealistic.
    Our committee hopes that that our report will carry the 
national conversation forward in the direction of realism, 
realism about public opinion, about risk, about cost, and about 
the incredibly daunting technical challenges of the horizon 
goal we hope the world embraces. And most of all, we hope to 
foster greater realism about the fact that if we really do want 
to go to Mars, then many actors, public and private, need to 
change long-standing behaviors and expectations. We are 
optimistic the public will support a consensus national goal 
and we believe the rationales justify its pursuit. We believe 
the achievement would be monumental if it occurred, but we 
think there is really one and possibly only one approach to get 
there, and we have offered up our best ideas in support of that 
approach.
    [The prepared statement of Gov. Daniels follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. Thank you, Governor Daniels.
    And, Dr. Lunine.

               TESTIMONY OF DR. JONATHAN LUNINE,

                 REPORT CO-CHAIR AND DIRECTOR,

                CORNELL UNIVERSITY'S CENTER FOR

                RADIOPHYSICS AND SPACE RESEARCH

    Dr. Lunine. Mr. Chairman, Ranking Member Johnson, Members, 
let me add my thanks to you all for giving us the opportunity 
to talk about this report this morning.
    We recognize it is a very long report with a lot of detail, 
and so if you cannot or have not read the entire document, 
certainly Chapter 1 is the important chapter to read. And in 
particular there you will find our major findings and 
recommendations on issues such as public and stakeholder 
opinions about space exploration and human spaceflight in 
general; an honest and detailed independent analysis of the 
technical and affordability realities associated with the three 
example exploration pathways that we have put together that 
lead to Mars; an examination of the rationales for human 
spaceflight; and most importantly, our recommendation on 
adopting what we call the ``pathways approach'' that we believe 
will help our Nation achieve that next giant leap for 
humankind.
    Anybody who reads about the history of space will come to 
realize very quickly that there are many myths that surround 
both public opinion and proven benefits from human spaceflight. 
If the decision to pursue human spaceflight were based simply 
on the available data on proven benefits that uniquely accrue 
from this endeavor or were based on public opinion being in the 
majority supporting a particular program in advance, then we 
would likely not go. We also recognize that by these kinds of 
criteria, Americans would never have set foot on the Moon, and 
yet that achievement is now viewed as a source of inspiration 
and great pride by many, if not most, Americans.
    In fact, Mr. Chairman, it has been political leadership 
that determines whether our nation will pursue major new 
ventures. Our elected leaders have shown courage and vision in 
the pursuit of human endeavors in space, and when those visions 
are implemented--such as with Apollo or the Shuttle--the public 
is retrospectively supportive of the expenditures of our tax 
dollars on what are viewed as endeavors of national importance.
    In the end it was the judgment of this diverse committee 
that the aggregate of the aspirational and pragmatic rationales 
does argue for a continuation of the Nation's human spaceflight 
program. In effect, the whole was greater than the sum of the 
parts. Whether to pursue human exploration beyond low-Earth 
orbit in a truly sustainable way is a decision that deserves 
careful consideration by our Nation's leaders, stakeholders, 
and the public at large. And in making that decision it will be 
paramount to ask the question, ``What would a future be like 
where there were no expectation that Americans would once again 
venture into space?''
    But as such decisions are contemplated, we cannot ignore 
the significant leaps in technical capability that will be 
required to land and sustain humans on Mars. Governor Daniels 
has talked about some of those key technologies. And these will 
be extremely difficult to develop in terms of cost, schedule, 
technical challenges, and gaps between current and needed 
capabilities. Achieving these leaps was the motivation behind 
our recommendation of adopting a pathways approach, since only 
a sustained program that builds upon a sequence of technical 
and exploration successes can buy down the risk involved in 
getting to Mars in a reasonable time frame.
    In one of the possible pathways analyzed in detail in the 
report--and these are example pathways--we included as a 
stepping stone extended human operations on the lunar surface. 
Our technical panel concluded, and the committee concurred, 
that extended surface operations on the Moon, not Apollo-style 
sorties, but extended surface operations would make significant 
contributions to reaching the horizon goal through development 
and testing of key operational technologies.
    Mr. Chairman, Mars really is incredibly hard. And to reach 
that horizon goal will cost decades, hundreds of billions of 
dollars, and human lives. To be a sustainable program, it will 
require a steadfast national commitment to a consensus goal, 
international collaboration, and a budget that increases by 
more than the rate of inflation.
    If the Nation does decide to undertake one of the greatest 
of human technical endeavors it has ever attempted, and we 
assert that there is not much time in which to make this 
decision, we have provided in our report what we call the 
Pathways Principles that will help in the choice of a consensus 
pathway to that goal and decision rules that will serve as 
guidelines on how to manage the pursuit of the chosen pathway 
when stressors such as diminished budgets might arise.
    Our committee is convinced that these principles and 
decision rules provide a way for our national leadership to 
decide on a given pathway, measure progress in its pursuit, 
navigate off one pathway to another, or cease the endeavor 
altogether.
    But in the end, it is our elected leaders who will be the 
critical enablers of our nation's investment in human 
spaceflight that ultimately one day may put American astronauts 
on the red soil of Mars.
    Thank you again for the opportunity to testify today on 
this critical national question.

    [The prepared statement of Dr. Lunine follows:]

    [GRAPHIC] [TIFF OMITTED] 

Chairman Smith. Thank you, Dr. Lunine. And I will recognize 
myself for questions.
    One of the conclusions of your report is as follows: ``To 
continue on the present course is to invite failure, 
disillusionment, and the loss of the long-standing 
international perception that human spaceflight is something 
the United States does best.'' That is an incredible summary of 
where we stand today and I don't know that too many people 
would disagree with it.
    My first question, Governor Daniels, may I direct to you, 
and that is does the Obama Administration have a plan to get to 
Mars, as difficult and as costly as it might be?
    And, Dr. Lunine, I hope it doesn't cost lives, but 
inevitably exploring new frontiers does.
    But, Governor Daniels, does the Administration have a path, 
have a plan to get to Mars as we sit here today?
    Gov. Daniels. Mr. Chairman, I believe our committee's 
statements, the one that you read and others that we made, were 
meant to refer not to any one Administration but really to a 
persistent pattern now. And I think we speak in terms of 
decades. So to say that at the--as we do that at the present 
time business as currently conducted won't get us to Mars is a 
statement we could equally have made about the posture of NASA 
and our program as it stood at other points in the past. And we 
do believe that it will be necessary and sooner, rather than 
later, for the Nation, all of it, whatever Administration is in 
authority at the time, the Congress as it is constituted at the 
time, NASA, and the private space community for that matter to 
agree on an approach that, while it may not be everyone's 
favorite, everyone will agree to sustain and support over the 
lengthy time that will be necessary. And that we do not have 
today.
    Chairman Smith. Okay. Thank you, Governor.
    And, Dr. Lunine, this next question is actually addressed 
to both you and Governor Daniels, and that is were we to say 
that landing astronauts onto Mars was a goal that we wanted to 
achieve, what are the comparative disadvantages of the Asteroid 
Retrieval Mission or the advantages of going back to the Moon 
as a stepping stone to the landing of astronauts on the Moon?
    Dr. Lunine. Mr. Chairman, we looked at what we called three 
example exploration pathways for getting from today to the 
surface of Mars.
    Chairman Smith. Yes. I think I said surface of the Moon; I 
meant Mars.
    Dr. Lunine. Yes, actually you said Mars in the end, yes.
    Chairman Smith. Right. Okay.
    Dr. Lunine. So these are, again, examples only, and in the 
end, should the Nation decide to do this, of course there may 
be a different set of stepping stones, a different exploration 
pathway. But we did look at one pathway that involved the ARM, 
Asteroid Redirect Mission, another that involved initially 
lunar sorties and then a lunar outpost before moving on to the 
surface of Mars, and then another pathway that we called 
Enhanced Exploration that involved visiting asteroids in native 
orbits, the lunar surface, the Martian moons, and ultimately 
the Martian surface.
    The differences among these three pathways have to do 
principally with the number of steps that are available in 
which to develop the key technologies that will be needed to 
get to the surface of Mars, a whole list of technologies that I 
won't articulate in my answer to this question, but we can if 
you wish.
    The ARM to Mars exploration pathway in which one goes from 
the Asteroid Redirect Mission to the Martian moons and then to 
the Martian surface has effectively the smallest number of 
stepping stones but the greatest technological leaps are 
required in going beyond ARM to get to Mars. And in particular 
a number of technologies that are key to landing on Mars and 
getting astronauts back are not developed in the context of the 
ARM mission. They have to be developed after that, but there 
are no stepping stones on which to actually test them. And some 
of the technologies developed for ARM are what we call dead-end 
technologies that are not useful as far as the committee can 
see in the succeeding steps to going toward Mars. So that is 
the essential issue with respect to that particular pathway.
    Chairman Smith. And going back to the Moon would be an 
advantage for the opposite reasons. Is that correct?
    Dr. Lunine. So in the pathway in which there were lunar 
sorties and a lunar outpost, there would be an opportunity to 
test technologies that would be required in partial G 
environments for extended stays on the Martian surface, to 
which astronauts would be committed.
    Chairman Smith. Okay. Thank you.
    My time has expired but I want to make one more point, and 
that is to focus on the most recent proposed budget by this 
Administration for NASA and to point out that the 
Administration's proposed budget for NASA is $1.8 billion less 
than the last budget under the Bush Administration, which seems 
to me that the Administration is not making space exploration a 
priority.
    That concludes my time. And the gentlewoman from Texas, Ms. 
Johnson, is recognized for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    It is almost comical to hear your last statement as the 
kind of struggle we had for reauthorization of NASA in this 
Committee. It had nothing to do with the Administration.
    But I want to say to the witnesses, first of all, do both 
of you stand by the report and the contents of the report?
    So you feel that it really is important for the Nation to 
find a way to be involved in this kind of research?
    Now, Governor, I am a product of a school of Indiana, St. 
Mary's at the University of Notre Dame, and I know you are not 
a spendthrift and--nor is Indiana as a State. And I am from 
Texas so you can take that for what it is worth. But if you 
really do think from this research that this is a goal that 
this Nation should achieve, do you think it is important enough 
to convince the people on the other side of the aisle to help 
us to get going because it seems to me that every day that we 
wait we are wasting time. We have had people in the past who 
had that foresight that allowed this to happen, and we are 
realistically in a financial bind, but we cannot shut the door 
to our future.
    Tell me how you really feel about this.
    Gov. Daniels. First of all, thanks for mentioning your St. 
Mary's credential. Now I have got another reason to admire you, 
Congresswoman, and now I know why you turned out so well.
    Ms. Johnson. Thank you.
    Gov. Daniels. Yes, emphatically I do agree. I want to 
stress, I made mention in the short opening that I do believe 
all of us brought to the committee an open mind. We spent a lot 
of time asking the fundamental question that we were assigned, 
should the Nation do this at all, and if so, on what basis? And 
that was not a reflex judgment, I don't think by anybody, let 
alone the whole group. And I do share it having listened to 
those discussions, all the witnesses, all the literature that 
we surveyed.
    And I also would observe it is accurate to say that this is 
one issue, mercifully, that I don't think divides us 
particularly on partisan lines. I think there are people who 
are very enthusiastic that we heard from who may disagree 
strongly about other things, and people who question the value 
that can be found in both camps. But we hope that our report 
makes a strong case for proceeding and lays out, in the most 
candid way we could, the preconditions for succeeding, which 
will be much harder, I think, for folks to come to terms with 
than the abstract idea of whether we should go and whether we 
are enthusiastic about somehow finding resources.
    Ms. Johnson. Doctor?
    Dr. Lunine. Well, I agree with Governor Daniels. I want to 
emphasize how broad the background of the Committee Members in 
fact was. This was not a committee of astronauts or aerospace 
engineers. We had historians, we had sociologists, we had 
businesspeople; there were very skeptical people I have to say 
right at the beginning. And I was somewhat myself skeptical 
that we could come to a consensus. And in the end this very 
diverse committee of experts came to a strong consensus on the 
conclusions of the report, and that to me I found quite 
remarkable.
    Ms. Johnson. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you very much, and I want to welcome 
our witnesses, especially Governor Daniels, who we have worked 
together in the past on many various projects that were 
successful and now we want to make sure that we look at 
America's space program and see if we can give it some 
direction with what we have learned.
    Let me ask right off the bat, the study that we are talking 
about, did it come to a conclusion as to how much money it 
would cost for a Mars mission?
    Dr. Lunine. Congressman Rohrabacher, we did not actually 
try to total up and provide a final number to three digits on 
what the Mars mission would cost, but the technical panel in 
their analysis did look at the cost of various elements, 
developing various elements.
    Mr. Rohrabacher. Um-hum.
    Dr. Lunine. And essentially then what you would see in 
Chapter 4 are these sand charts that show what is required in 
terms of budgets relative to today in order to accomplish these 
goals.
    Mr. Rohrabacher. Could you give us a little hint about what 
they are?
    Dr. Lunine. So I will give you two numbers. One is that in 
order to accomplish this goal, the human space exploration 
program would have to rise by something on the order of two or 
three percent higher than inflation rate in order to meet the 
rising cost in the sand chart. And the total cost, as we say in 
our report, of a program that ends at Mars is on a scale of 
hundreds of billions of dollars.
    Mr. Rohrabacher. Hundreds of billions of dollars. And I 
would just like to say that I think that eventually humankind 
will get to Mars and what we really are talking about now is 
making sure we get to Mars earlier than what might happen 100 
years from now, correct? Okay. Hundreds of billions of dollars 
to get to Mars a little earlier--now, maybe a little--maybe a 
lot earlier than what we would otherwise get there.
    The--so what areas do you--as far as I can see, that means 
that we would have to have major international cooperation, 
which you mentioned with China, as well as other nations. And 
we would also perhaps have to make sure that the private sector 
got involved in space and took up some of the slack of what 
NASA might now be doing as part of a governmental program. 
Maybe SpaceX and some of these others could come in and start 
doing some of the more commercial type of activities.
    In terms of China and space cooperation with countries like 
China, doesn't that sort of sit with you in a--what if somebody 
said in 1937 we really want to develop these rockets to go to 
the Moon, and you know this guy over there in Germany has 
really got a good rocket program; maybe we should cooperate 
with him. Does that--the fact that China now is the world's 
worst human rights abuser, isn't the fact that China now is 
committing acts of aggression all along the Pacific Rim with 
the Philippines, with Japan, and others, doesn't that sort of 
affect our decision as to whether we are going to cooperate 
with that country?
    Dr. Lunine. Well, I am going to punt part of your question 
over to Governor Daniels if that is okay, but I want to make 
one point which is that in Chapter 4 of the report, it is 
important to recognize that there is a very strong inflection 
point in terms of the budget profiles. A budget profile that 
only rises with inflation essentially will not get us to Mars 
in any foreseeable time. The program just does not close.
    With respect to collaboration, one of our pathways 
principles is to seek continuously to engage new partners, and 
that can be international partners, other federal agencies, and 
commercial entities as well. So that is the key part of our 
report.
    Do you want to answer the----
    Gov. Daniels. Well, the committee recognized how difficult 
and complex this subject is. I mean for openers--and it is 
important I think in every answer we give or every dimension in 
which we think about this subject to remember the incredible 
time frames over which we are talking. Countries that are 
friends today might not be friends in 2040 or 2050----
    Mr. Rohrabacher. Um-hum. That is a good point.
    Gov. Daniels. --which might be as soon as we can get there 
under the best of circumstances and vice versa. Space has 
always been to some extent a place where nations that competed 
vigorously have found it useful or at least possible to 
collaborate. And Russia, not exactly the best actor on the 
planet right now either, but they are our intimate partner with 
regard to the Space Station, as the Chairman----
    Mr. Rohrabacher. Of course, we are limited----
    Gov. Daniels. --reminded us.
    Mr. Rohrabacher. --to borrowing the money from China. If we 
don't make them our partners, we are going to borrow it from 
them anyway.
    Gov. Daniels. Yes, well, this is relevant in many respects 
to the discussion we had.
    Let me just make I think a related point and it certainly 
links back to the previous question, too. When we talk about 
the amount of money involved here, it is a lot of money, but we 
are talking about over decades. Now, this Committee knows, but 
not every citizen knows, that the NASA human spaceflight budget 
is a couple tenths of a percent of the federal budget, and 
increases in it will be rounding errors in the larger sense. We 
all know that the real issues with regard to making sure we can 
meet all our national priorities on Earth or beyond have to do 
with the way in which autopilot safety net programs are 
devouring the discretionary funds for NASA, the FBI, the Park 
Service, and so many other things that we value. So those two 
pieces I think of perspective are important when we talk about 
the money.
    And finally, a learning point I think for me and maybe 
other committee members, is that a pathways approach, the 
committee believes, is a prerequisite to success. I will just 
say that there is not a lot of point in spending more money 
above inflation if we just spend it the way we do today.
    Mr. Rohrabacher. Um-hum.
    Gov. Daniels. So the sine qua non I think our report is 
pretty clear on is a new disciplined, sustained approach, the 
kind we try to elaborate. Given that approach, then yes, the 
data does say that something above flat-line spending would be 
required.
    Similarly, with regard to partnerships, partnerships in the 
first instance--we look at history--turn out to be more 
expensive. They are not cost saving. They are the complexity, 
the time that is added sometimes in getting agreement can add 
costs, so you really will need--whether it is China or anybody 
else, you really will need very substantial, more than the 
historical levels of cost sharing first just to break even, let 
alone to bring down the overall burden.
    Mr. Rohrabacher. Um-hum. Thank you.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Thank you, Governor and Doctor, for being here today and 
thank you so much for leading the National Research Council 
report. We on the Committee I know really appreciate it.
    You are right, Governor, that we have had a lot of 
discussions about spaceflight that have united this Committee 
and they also have the potential to unite the country. And we 
let our imaginations really be ignited by the incredible work 
done by NASA. We have had a lot of discussions in this 
Committee and in the Space Subcommittee about the leadership 
and the long-term thinking that is involved in looking at 
spaceflight.
    We have had some interesting discussions here about the 
strategic direction and that is why we especially appreciate 
that your report--what are the benefits of going back to the 
Moon or do we focus on Mars, do we have the Asteroid Retrieval 
Mission? So we are really glad that we have your background and 
your expertise.
    And I want to follow up on the previous conversation about 
international collaboration. We have talked about that a lot in 
this committee and I noticed that one of the things in the 
report that you mentioned is that it is evident that U.S. near-
term goals for human exploration are not aligned with those of 
our traditional international partners. While most space-faring 
nations and agencies are looking toward the Moon, specifically 
the lunar surface, U.S. plans are focused on redirection of an 
asteroid into retrograde lunar orbit, et cetera. So can you 
talk a little bit about whether we should stop discussing going 
back to the Moon and really focus on Mars or do we need to 
continue to have those conversations about returning to the 
Moon as part of international collaboration if in fact those 
goals are different?
    Gov. Daniels. Well, thank you. It is an excellent question. 
Of course it was an observation. We had personal testimony and 
a chance to question leaders of every international space 
program and I think it is an accurate reflection of what we 
heard from them to say that they lack enthusiasm at least at 
this point for the ARM idea. They have been more interested, 
and told us so, in the lunar surface, and my friend Jonathan 
talked in answer to a previous question about the reason our 
committee saw some advantages to that. Going to the Martian 
surface, it might be extraordinarily helpful to have been on 
some surface first as opposed to leaping there without benefit 
of that direct experience.
    I think that is part of the thinking of our international 
partners or potential partners as we heard it. But again, it 
wasn't in our charge and it is not part of our report to make 
any specific recommendation, only to say that at some stage, 
and we hope it is before long, the Nation needs to pick such a 
route and stick to it.
    Ms. Bonamici. Thank you. And I want to try to get another 
question in.
    Dr. Lunine, you talked about the myths and it was 
interesting to hear you say that if we relied on public opinion 
polling, things might be very, very different. I have talked a 
lot in this Committee and we have had a lot of discussions 
about part of the role of NASA is to inspire students to go 
into science fields. I also serve on the Education Committee. 
We have a lot of discussions about that. Can you talk about 
whether NASA is doing enough to really share its successes, its 
potential with the public because I tell you, when we are 
talking with our constituents, they don't understand all the 
benefits of space exploration both in the short-term and the 
long-term and historically. So are they doing enough? Is there 
more that can be done either through NASA or in other ways so 
that we can help to shift the public opinion and see the 
benefits?
    Dr. Lunine. Thank you, Congresswoman, for that question. 
The myth I was referring to in particular with respect to 
public opinion is that during the development of Apollo there 
was large-scale public support for that program, and in fact, 
what our public and stakeholders outreach panel found is that 
that really was not the case. But in retrospect the public 
supported that program looking back on it. And the same seems 
to be true now for the Shuttle.
    With respect to your second question, we did not look in 
detail at NASA's Education and Public Uutreach program as a 
committee so I can't speak to that in the context of the 
report. My personal experience with NASA is that it does an 
excellent job of providing materials through the web and other 
means for the public to be engaged in space exploration of all 
types. And I have been a part of that to some extent and I 
think that certainly a large part of what we do in space now is 
immediately accessible to the public through the web.
    Ms. Bonamici. That is right.
    Gov. Daniels. May I add just a quick word? I think 
because----
    Ms. Bonamici. If the Chair will allow.
    Mr. Palazzo. [Presiding] Go ahead.
    Ms. Bonamici. Thank you.
    Gov. Daniels. I do think it is a really important question 
and I would only add that I believe if there were secret sauce 
that NASA could have applied that would ignite a different 
level of public excitement, it would have happened a long time 
ago.
    When we talk about a realism about public opinion, we are 
just trying to look in a clear-eyed fashion at the data 
Jonathan just talked about. And really what it says is that 
this will require national leadership. Many things do. Many of 
the great achievements of this nation and this government have 
not been directly responsive to a public--previous public 
outcry. And so what we do find in the data is that where 
leadership occurs and then progress occurs, the public is proud 
and the public then responds very strongly.
    Ms. Bonamici. Thank you very much. And my time is expired. 
I yield back. Thank you, Mr. Chairman.
    Mr. Palazzo. Okay. The NASA Authorization Act of 2014 was 
just passed the House of Representatives by a near unanimous 
vote. It includes the requirement that NASA develop a roadmap 
for the future of human exploration which defines key 
milestones and decision points for an expanded human presence 
in the solar system. Would a formal roadmap for future missions 
be helpful for NASA? What types of information would you expect 
should be included in such a roadmap? And how can NASA 
practically incorporate your recommendations for a sustainable 
program into this roadmap? That question is for both of you.
    Dr. Lunine. Congressman, the central core recommendation of 
our report, which is the pathways approach, essentially 
consists of a very specific set of steps to a horizon goal. 
Now, in the sense that a roadmap would embrace those specific 
steps, yes, that would be useful, but I think that the pathways 
approach goes beyond roadmaps, which often are things that have 
quite a bit of flexibility or some indefinite end to them, to a 
process where instead there is a definite horizon goal--and 
this committee recommends Mars--there are intermediate stepping 
stones and those stepping stones have specific technological 
developments that are tied to them that are then needed 
ultimately for a landing on Mars and also the stepping stones 
prior to that, and then the ability if conditions do change to 
make reasoned and rational changes in the pathway through a set 
of decision rules.
    So, you know, I see that as something more than a roadmap. 
First of all, if the Nation decides to commit to this, it is a 
very--how shall I say it? A very well-defined framework with 
pathways, with stepping stones, and with decision rules that 
have to be adhered to over years and decades in order to reach 
the final goal. It is a substantial undertaking and it is more 
than a roadmap.
    Mr. Palazzo. All right. Thank you.
    Governor Daniels, do you want to----
    Gov. Daniels. I think that is pretty well said. I would 
just emphasize that it will take a level of discipline that we 
have not as a nation shown--so not picking on any one entity, 
person, branch, Administration here--the discipline to adhere 
to a chosen pathway, whichever it is over multiple 
Administrations and a lot of turnover in Congress. It is not 
the natural state of affairs. We all know and understand why 
and that is why it will be difficult to do.
    The discipline to abandon dead-end technologies that will 
not contribute meaningfully to the technical requirements of 
the next step or the step beyond, the discipline to rotate 
resources out of infrastructure that doesn't fit the pathway as 
soon as it is obvious that it doesn't. So these are, as I said 
earlier--a lot here that people I think can agree to in the 
abstract will be very, very--a call on us all to approach this 
in a brand-new way, but that is--it is essential because the 
qualitative difference about this goal versus almost anything 
else we can think of is it takes 30 years or more to bring it 
off.
    Mr. Palazzo. All right. Well said.
    The Administration has consistently requested less funding 
for the Space Launch System and the Orion Crew Capsule than is 
needed to keep the programs on schedule and reduce programmatic 
risk. The funding for Earth science at NASA has increased by 63 
percent since 2007 while the overall budget has been reduced. 
How does your report address large priority shifts of this kind 
of the agency and how can Congress ensure that there is not an 
artificial need for an off-ramp simply because the 
Administration starves exploration for other priorities?
    Dr. Lunine. Well, I think the first step is that there has 
to be a national commitment to the ultimate horizon goal, and 
if there is not that strong national commitment, then it is 
going to be difficult to pull off human exploration missions 
into deep space at all. You know, we talk about Mars as the 
horizon goal, but all of these require very strong commitment. 
These off-ramps are essentially termination points for such a 
program, and so again it is I think a matter not so much of 
technical issues but political will to undertake a program like 
this that will cover decades.
    Mr. Palazzo. Governor Daniels?
    Gov. Daniels. I think I would just say that I don't think 
there is a lot of utility in talking about this Administration 
or any one Administration if we are going to make the national 
decision or sets of decisions that we think are necessary for 
success here. It will be something we will all have to confront 
in the years just ahead of us.
    And so it was said earlier we are where we are and that is 
my view, too. It won't be just the next Administration, the 
next Congress, whoever makes it up, but multiple ones. We hope 
there will be a culture built in which there will be a 
presumption of discipline, a presumption of sustaining the 
course that is chosen over all the difficulties and all the 
inevitable setbacks.
    Mr. Palazzo. All right. Thank you.
    And lastly, I would just like to take a moment to follow up 
on the questions the Chairman asked about the ARM. You know, 
Dr. Lunine, you stated that in the report the committee agreed 
that ARM would lead to dead-ends on the pathway approach. I 
want to emphasize that statement and reiterate my thoughts that 
the ARM is a costly distraction and I am hopeful that NASA will 
take the recommendations of this report to heart. And that is 
not just my personal opinion; that seems to be the majority 
opinion in the scientific community.
    At this time I would like to recognize Ms. Wilson for five 
minutes.
    Ms. Wilson. Thank you, Chairman Palazzo and Ranking Member 
Edwards. And I want to thank Governor Daniels and Dr. Lunine 
for being here today and for your work as Co-Chairs of the 
Committee on Human Spaceflight.
    I agree with Governor Daniels' statement that human 
spaceflight should remain a major national priority and I was 
glad to see your committee recognize the importance of NASA and 
human spaceflight. In Florida, my home State, the famous 
Kennedy Space Center has a special connection with NASA. Many 
of my constituents have visited the space center and were 
fortunate enough to visit at least one of our Space Shuttle 
launches.
    One of the hallmarks of this Nation is our ability to dream 
big and to achieve the impossible, and NASA has exemplified 
this spirit for more than 5 decades. As Members of Congress, we 
have the responsibility to keep this spirit alive. This means 
ensuring NASA has both the resources and guidance to continue 
reaching for new heights. To achieve NASA's far-reaching goals, 
long-term planning and sustained support are required. So I say 
let's keep working together in a bipartisan fashion to ensure 
NASA can continue its mission of discovery, technological 
innovation, and inspiration.
    I have a couple of questions. The United States currently 
works with Russia, Canada, and Japan, and these are the 
countries that participate in the European Space Agency on an 
International Space Station. In your report you discussed the 
possibility of expanding international collaboration in 
spaceflight, including the potential of working with China. I 
recently visited China and I was concerned. What lessons are 
there in our current collaboration that we can apply to future 
collaboration to ensure intellectual property and that 
classified information is adequately protected?
    Dr. Lunine. Thank you, Congresswoman. We recognize that as 
a committee as well and we are also concerned. We also 
recognize that some of our traditional international partners 
are interested in collaborating with China as well, and whether 
the United States does or doesn't, we are likely to see 
collaboration between China and some of our traditional 
international partners.
    Governor Daniels is prompting me to tell a story that I 
think is correct. I have checked it with other committee 
members and of course I was in high school at the time, but 
during the Apollo-Soyuz test project when the United States and 
the Soviet Union worked together to achieve the first 
international docking in space of two human spacecraft, the 
docking module which was the connector between the Apollo and 
the Soyuz had a Russian end and an American end and it was 
primarily a piece of U.S. hardware that was transported to 
Russia for testing and in the context of one of those 
transports, apparently it was found that it had been 
disassembled and reassembled again probably in Russian customs. 
So, you know, this is the sort of thing that one has to watch 
for.
    Ultimately, if the Nation decides that China is a partner 
of value in this major human endeavor, the program would have 
to be designed to safeguard our technologies. There is no 
question about that.
    Ms. Wilson. Okay. Thank you.
    We are currently forced to rely on Russia to transport our 
astronauts to the International Space Station. When there is 
conflict between governments, how can we guarantee the 
concerns--the safety concerns for our astronauts? Has that been 
discussed or any plan in place as to what happens when there is 
conflict, which is something that we are fast approaching now 
with Russia?
    Gov. Daniels. Well, these are excellent questions and very 
legitimate concerns. We talked about them in the committee. I 
guess one can only say that we did live through periods of 
intense disagreement, conflict with the Soviet Union while we 
collaborated. We are collaborating with Russia now at a time 
when we have immense disagreements. These are very hard 
questions. And the intellectual property question of course may 
be even tougher.
    All that can be said is as hard as those are to 
contemplate, as big as those risks are, the idea of somehow 
going to Mars alone is probably even less promising and raises 
even bigger questions. And so that is why our committee thinks 
at least we have to be open to trying to solve these problems 
or properly safeguard against either property theft or maybe 
safety challenges with regard to what is emerging as the other 
very vigorous, disciplined, purposeful space program on the 
planet.
    Mr. Palazzo. I now recognize Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    The Challenger catastrophe, as we all well know, you had 
one engine failure that had a catastrophic effect on all the 
other engines and resulted in the destruction of the Challenger 
Space Shuttle, including significant loss of life. Now, your 
report on page 4-38 claims ``Falcon Heavy is designed to 
tolerate the loss of thrust from several engines and still 
complete its mission, thus enhancing mission reliability.'' 
Given that the Falcon Heavy requires 27 Merlin 1D rocket 
engines to operate and given the Russian N1 moon rocket, a 
system which failed 100 percent of the time, used almost the 
same number of engines--30--please provide the analysis to back 
up the claim that the number of engines improves reliability. 
Isn't it likely that the SLS approach of using two proven 
booster engines and four proven core stage engines with over 40 
years of Space Shuttle flight heritage will be significantly 
lower risk than a mission perspective given that the risk of a 
catastrophic failure with six engines is less than a 
catastrophic failure with 27? Please comment.
    Dr. Lunine. Congressman, thank you for that question. Our 
technical panel evaluated a number of different technologies 
that would be needed for the early and late stages of a program 
that leads us ultimately to Mars. And as you know, the analysis 
was actually based on the Space Launch System, SLS, as the 
baseline, and in fact all of the design--so-called design 
reference missions of record that were used by our technical 
panel to put together these exploration pathways, these example 
pathways, they all involve the SLS as the launch vehicle.
    The technical panel itself did look at other alternatives. 
It did include the Falcon Heavy in a brief discussion of the 
potential benefits and risks, but in fact none of the scenarios 
that are actually in the document at present utilize the Falcon 
Heavy as the launch vehicle.
    If at some point this were to become an issue in terms of 
which launch vehicle to use, all of these scenarios that we 
have and Chapter 4 would have to be redone with Falcon Heavy in 
there.
    But beyond that, if you want more detail on how the 
technical panel arrived at that particular conclusion for the 
Falcon Heavy, we can certainly ask our technical panel chair to 
provide you some written answers to how they reached that 
conclusion.
    Mr. Brooks. Thank you. Next question. NASA's Small Bodies 
Assessment Group has commented on NASA's current plan to 
redirect an asteroid and send astronauts to visit it. In one 
report the advisory group stated, ``while the participants 
found it to be very interesting and entertaining, it was not 
considered to be a serious proposal because of obvious 
challenges, including the practical difficulty of identifying a 
target in an appropriate orbit with the necessary physical 
characteristics within the required lead time using existing or 
near- to long-term ground-based or space-based survey assets.'' 
Now, do you agree or disagree with that assessment and why? And 
if you feel that expounding is beneficial, please do so.
    Dr. Lunine. So I have actually not read that report in 
detail so I don't want to comment on it. And again, the task 
statement that we responded to in our report did not include a 
detailed assessment of the ARM.
    All I can say again is that in the context of the example 
exploration pathway where we included ARM, that particular 
mission developed several technologies that were then not 
useful for subsequent stepping stones on the way to Mars, in 
particular the use of the solar electric propulsion, which is 
not sufficient to get humans to Mars, and the actual asteroid 
retrieval robotic vehicle. But again, this was all done in the 
context of that particular exploration pathway and we did not 
conduct a scientific or technical assessment of the ARM 
specifically.
    Gov. Daniels. Yes, just to emphasize that it was not in our 
statement of task. In fact, I think it would have been a 
violation of the scope of our assignment if we had opined on 
the merits of any specific system or proposal. The ARM we did 
feature in one of the three sample pathways, and I think the 
right way to think about those is that they are meant to 
illuminate tradeoffs. There are potential pluses and potential 
minuses to each pathway we looked at and probably any one that 
might be suggested in the future. And Jonathan just specified 
some of the downside risks of a pathway, including the ARM.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Palazzo. I now recognize the Ranking Member of the 
Space Subcommittee, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to our panelists today.
    You know, as I have been listening to the discussion, one 
of the things that occurs to me first is that I think there is 
significant alignment between the House-passed authorization 
and the NRC's recommendations. I am a little troubled by the 
description of the pathway as so distinct from the roadmap 
because I think in this Committee, as the Chairman and I have 
envisioned what NASA would provide back to us, I don't see a 
lot of differences frankly in what you have outlined in your 
principles. But I view that as more semantics than anything and 
we could certainly be more directive to NASA in that respect in 
terms of what it is going to provide back to this Committee.
    I am curious as to whether you think it is appropriate for 
the Committee to be prescriptive to NASA in terms of defining 
launch vehicles and specifications, interim destinations, and 
the like. I mean you didn't do that in your panel report of 
experts and so I am curious as to whether you think that is an 
appropriate role for the Congress.
    Gov. Daniels. Well, it can't happen without the Congress 
ultimately, but I think you make a very good point. This is 
probably not the optimal place for it to originate. What I 
think our committee would hope is that the Congress would unite 
around the very simple question, ``do you want to go to Mars or 
don't you?'' If you want to go to Mars, whether we like it or 
not, certain things would have to be done very, very 
differently and in a very unnatural act for any democratically 
elected government where people come and go and change would 
have to be sustained over this extraordinary probably uniquely 
long time frame that this achievement would take. And we know 
what we would be biting off to do that.
    But I think that it would have to start with a Congress 
that perhaps requested, demanded a set of choices from NASA, 
pathway choices, embraced one hopefully on the broadest 
possible basis so that it might have a chance of staying power 
over the years, something that people could look back on and 
say we would be violating faith with this great adventure if we 
took a sudden detour, sending us off on some other direction, 
the way they have been sent in the past. So I see the central 
role in think would be Congress' but probably not the place 
that it originates or maybe not----
    Ms. Edwards. So we shouldn't get into the nitty-gritty 
details of the technology and the science but we could leave 
that to the experts because I think that there has been a fair 
amount of unanimity on this Committee and you can see that in 
the authorization that passed where I think we had only two 
dissenting votes in the Congress that said we want--we have a 
big vision; we share that horizon goal of Mars and we are going 
to enable NASA to have the opportunity to put some teeth to 
those proposals.
    I want to ask you about budget because, you know, if we all 
share that horizon goal, can you tell me just sort of ballpark 
if you will a budget that you think would be reflective of that 
goal so that we are in the 20- to 30-year range instead of the 
30- to 50-year range? Because we are at roughly 4.1, $4.3 
billion now for exploration, and that doesn't include the ISS, 
et cetera.
    Gov. Daniels. Well, Jonathan had the first go at this so 
let me give it a try also. I think that quite properly the 
committee didn't want to go beyond expressing bands and ranges. 
The starting point is the ultimate budget would be driven very 
much by the pathway chosen. There are pathways which will be 
substantially more expensive, more extensive, and therefore 
more destinations and so forth, more expensive than others. So 
that is the first uncertainty. And then we just didn't want to 
commit the sin of false precision and start producing numbers 
over these long time horizons that nobody could be very 
confident in.
    Ms. Edwards. So I don't think we want NASA committing to 
those sins either, but we do have to have a budget from the 
Congress----
    Gov. Daniels. Yes.
    Ms. Edwards. --and an appropriation from the Congress that 
reflects the kind of big horizon goal that you have identified, 
isn't that right?
    Gov. Daniels. Sure. And so just to recap, the committee 
believes that this is a worthy endeavor, it belongs on the list 
of national priorities, believes that Mars is the appropriate 
horizon goal, but just to reiterate something said earlier, the 
first and prerequisite step is to--is the commitment to a 
pathway--maybe if roadmap means pathway, that would be great to 
know because that would indicate this committee was maybe 
prepared to take this vital first step.
    With that in place, the best we were able to say was that 
something beyond a flat-line budget, not by a huge amount 
probably, but something beyond--we couldn't make the numbers 
work even for the least expensive pathways with constant 
dollars.
    Ms. Edwards. Right. Well, thank you. I have greatly gone 
over my time. I will just conclude just by saying to the 
Chairman, and I hope that he understands this, is that if we 
are really to commit to this goal, if the Congress is, this is 
not about nickeling and diming other programmatic missions 
within NASA. It is really committing to it as a nation and then 
putting the dollars that match the goal and the opportunity.
    And with that, I conclude. Thanks.
    Mr. Palazzo. I now recognize Mr. Bucshon.
    Mr. Bucshon. Thank you, Mr. Chairman. I would like to say 
that, you know, this is one of many hearings that we have that 
I attend talking about discretionary spending programs of which 
NASA is one of those, and I think Governor Daniels somewhat 
alluded to it but I usually say this at the opening is that the 
federal government needs to address the entire pie of federal 
spending. And as we know right now, 40 percent of the budget is 
discretionary approximately and 60 percent is mandatory. Unless 
we begin to address the known drivers of our national debt, all 
of us are going to be continually talking about how we are 
going to find money to do anything, including how we are going 
to go to Mars.
    That said, in the context of how the federal government--
how NASA currently spends its dollars, when we talk about 
future budgets, I think--I do think it is important to talk 
about efficiencies and effective ways to spend that money. And 
it can be done at the state level. Governor Daniels has made 
Indiana more effective and efficient in the way we use our 
dollars when we know we have a fixed piece--a fixed amount of 
money to spend. Did the committee begin to address anything as 
it relates to how our current structure of the way we spend our 
money can be addressed in any substantial way that might not 
only allow us to have more money to spend than we already have 
but in tight budgetary times maybe use that money more 
effectively and efficiently?
    Dr. Lunine. Congressman Bucshon, we did talk about this of 
course in a general sense. We didn't talk about specific NASA 
facilities and so on because again we are looking at 
methodology rather than a specific pathway. But one of our 
conclusions is that if we are going to embark on a pathway that 
leads to Mars and do it successfully in a finite amount of 
time, that in addition to developing things, other things have 
to be ended in some way, divested in the human spaceflight 
program.
    And so one of our pathways principles essentially says 
that--and I will just read it straight out; it is a decision 
rule--that when--``if there are human spaceflight program 
elements infrastructure and organizations that no longer 
contribute to progress along the pathway, the human spaceflight 
program should divest itself of them as soon as possible.'' And 
I think this speaks to the need for the kind of discipline and 
focus that would be required to achieve a goal as 
extraordinarily difficult and expensive as ultimately a human 
landing on Mars.
    Mr. Bucshon. So at the end of the day, I mean obviously 
Congress makes those--sometimes makes those decisions. You 
know, I mean the A10, for example, is a recent example, you 
know, on the DOD side where the Congress and the federal agency 
may disagree on the future of certain programs. It is a very 
difficult process, as all of us know.
    When it comes to the private sector, I am really intrigued 
about how we can leverage, you know, government dollars. The 
private sector can leverage government dollars to maybe do some 
things that maybe the government doesn't always do that 
effectively. I mean, Governor Daniels, do you have any--maybe 
any comments about how we might--you know, how do we leverage 
the private industry and what do you see as maybe their role in 
the future of manned spaceflight?
    Gov. Daniels. I appreciate the question because I think at 
least in some quarters our report has been read or misread to 
not emphasize sufficiently the role the private sector might 
play. We didn't mean for it to be read that way that perhaps we 
just didn't say it loudly or plainly enough.
    No, I think we heard a lot of testimony and we met with 
leaders of that community. There are a lot of possibilities 
there. And, you know, typically in this world the greatest and 
most sudden unexpected breakthroughs come from private 
enterprise and very, very likely will again and again over all 
the decades that we have between here and the Martian surface.
    I can just testify as a fortunate person who gets to hang 
out with brilliant young students and graduate students 
studying astronautics and working in this area, they are highly 
motivated. And we talk about the aspirational aspects and 
rationales for human spaceflight and it is one of those that 
you can't put a number on but it doesn't mean it isn't real the 
way in which young people are drawn to science and drawn to 
technology often by this thrilling adventuresome area. I can 
just tell you that the activity on the private side excites our 
students these days probably as much as traditional NASA. And 
we send a lot of bright young talent to both.
    Mr. Bucshon. Thank you. I yield back, Mr. Chairman.
    Mr. Palazzo. I now recognize Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman. I want to thank both of 
you for your service, your service and your interest in space 
and your testimony here today. So many questions and so little 
time really to get through them.
    The $64,000 question, 64 million, billion, whatever 
question is how we get a consistent plan and a consistent 
funding level through Congress after Congress, Administration 
after Administration. You are familiar with the dozens of 
missions to nowhere and we are afraid that we will see more and 
more of these. You know, you remember the ISS survived just by 
one vote, funding for the ISS at one time.
    And another approach that bears a lot of sense is the 
XPRIZE approach. And since there is really no good business 
model for exploring space, the XPRIZE process gives a lot of 
encouragement to that obviously, a lot of encouragement to 
private investment, technology development, risk. And I wonder 
if you have considered that process as well and what you might 
think the dollar amounts might be or the milestones might be.
    I mean we can have NASA maybe design a car to make three 
laps around the horseshoe in front of this building, and by the 
time they are finished it could be a $5 million car. We can say 
the first person that can design a car to make five laps around 
the building gets $1 million and, you know, it would be done in 
five minutes by private industry and we would save a lot of 
money and have always wanted develop for us already. It has 
been said by experts, you know, the Wright brothers would have 
never flown if they would have had to put up with FAA, and I am 
afraid that goes for a lot of space entrepreneurs.
    You know, this is a very difficult country to do business 
in and you have to take your hat off and respect any of them 
that choose to do business here with the overregulation and the 
red tape that we foist upon our space industry. While other 
governments subsidize theirs, we hassle ours. So your thoughts 
on that?
    Dr. Lunine. Thank you, Congressman.
    We didn't talk about the XPRIZE or again we didn't talk 
about specific commercial approaches because it wasn't part of 
our task statement or charge. But I do want to point out that 
we, in the approach that we developed, the pathways approach, 
leave the door wide open for commercial innovation in the 
stepping stones that would lead us ultimately to Mars. And 
again, I will quote from the pathways principles that we 
developed in our report, and number four is to ``seek 
continuously to engage new partners that can solve technical 
and/or programmatic impediments to pathway progress.'' And 
those partners can be governmental, they can be international, 
and they could be commercial as well. And without that 
flexibility, certainly any pathway approach is not going to be 
optimal. We have to be able to involve whatever new ideas and 
creative approaches that can be brought to bear on such a 
difficult problem as landing on Mars.
    Now, the question of, you know, how to encourage commercial 
endeavors, again, it is beyond the committee and I don't feel 
particularly qualified to say anything about that. I will say, 
though, that the overall problem of sending humans to Mars and 
landing them on Mars, even through this stepping stone 
approach, where you do this in progressive steps that are 
manageable enough that there is a reasonable chance of success 
for each one, is such a huge endeavor that it must involve the 
U.S. Government as the primary mover of this whole endeavor 
just because of the size and scope. And within the context of 
that, this committee believes there is ample room for 
commercial and international involvement, even it is essential 
for that involvement.
    Mr. Posey. Thank you. Governor?
    Gov. Daniels. Nothing to add. I think that is----
    Mr. Posey. Well, Governor, you have dealt--you have seen 
one Administration after another, dealing with one House and 
one Senate after another.
    Gov. Daniels. Right.
    Mr. Posey. You know, what do you think the common 
denominator might be to tie this together? You know, we are all 
searching for that continuity, everybody, no matter what 
direction they are coming from in space. You need to have a 
plan, you all need to stick to a plan, and it needs to be a 
long-range plan, not plan du jour, you know. It needs to be a 
long-range plan and we just can't find that glue that will tie 
that together.
    Gov. Daniels. You put your finger of course on the central 
dilemma. I said in the opening our report says in almost the 
same words that we recognize that calling for an approach like 
this flies in the face of everything back to the '70s I 
suppose, but we also say that if it seems unrealistic to 
believe that that sort of unity and that sort of continuity 
could be brought off in our system, then you might as well face 
up that Mars itself is unrealistic.
    Now, I am going to engage in some wild wishful thinking 
here, but I do think--and it was reflected in comments that the 
Ranking Member made earlier and others did--at least in theory 
this could be one of those subjects that we certainly need more 
of in this country in which people who disagree strongly and 
sincerely about other things could agree, particularly if folks 
accept the reality that if we are going there at all, it is 
going to have to be on this basis. We are going to have to hold 
hands not just in the first Congress that agrees to it but that 
has got to be transmitted somehow to those who follow.
    And, yes, that is not the natural state of affairs but this 
is not like any other endeavor that I can think of that 
government or the private sector for that matter attempts to 
bring off. And I appreciate your question and I think it is in 
some respects the ultimate question here, and forgive me for 
indulging in the thought that maybe it could all start right 
here.
    Mr. Posey. Well, you know, we would like to see that. It 
just seems like anything short of getting America out of the 
mall for 15 minutes and away from Dancing with the Stars for 15 
minutes and letting Neil deGrasse Tyson talk to each one of 
them for 15 minutes, you know, we could probably pass a 
constitutional amendment to fund that. But, you know--I see my 
time is expired. Thank you, Mr. Chairman. I yield back.
    Mr. Palazzo. I now recognize Mr. Hultgren.
    Mr. Hultgren. Thank you, Chairman. Thank you both so much 
for being here. I really appreciate your work on this. This is 
a very important subject.
    On a personal note, Governor Daniels, just want to say 
thank you for your work. I am a big fan of yours. I am from 
Illinois, enough said.
    I do want to thank you. I believe this is so important. As 
we continue to assess a future of human spaceflight in the 
United States, we need to have this discussion. It is certainly 
something I want to see America leading in and it is crucial 
that we get both public and international support to see this 
happen.
    I wonder--and I address to both of you on this--there is an 
important connection between motivating students to pursue STEM 
careers and having a visible active human spaceflight program. 
Motivating students to pursue these fields is an important 
factor in the success of certainly future space endeavors. How 
did the panel factor in this need into its recommendations?
    Gov. Daniels. Let me start because I think it surfaces a 
really important point that hasn't come up, up to this point. 
So, first of all, we talk about it at great length, agree that 
like two or three other rationales for human spaceflight, it 
can't be quantified--that doesn't make it any less real or 
important--and came to the conclusion that when you roll 
together those practical or pragmatic reasons with those 
aspirational, as we called them, reasons, the totality did 
justify treating this as a priority.
    The point I would like to make on this count is that over 
and over the idea of mission frequency, sometimes called 
cadence, that is to say, what came up for at least two reasons; 
one, to maintain the technical proficiency necessary for an 
endeavor like this. If you are only flying every three or four 
years, you are losing people, you are losing skills, you are 
not developing, you are not making enough mistakes probably to 
learn from, all those things. And you are probably not 
sustaining public interest among either young people or their 
elders. And so if you do spend some time in the report, you 
will see frequent references to this matter of mission cadence 
and I just wanted to use your question as an opportunity to 
raise it here.
    Mr. Hultgren. Thanks.
    Dr. Lunine. Yes. And if I could just add briefly, 
Congressman, your point is very important. This is one of the 
pragmatic rationales that we talk about in the report as 
stimulating and inspiring students as well as citizens in 
general. And, you know, the counterfactual of what would happen 
if there were no human spaceflight program in terms of what the 
next generation of aerospace expertise would look like in this 
country, obviously that would not be a positive change.
    Mr. Hultgren. Yes. And I agree so much with you and I have 
to remember back to the '60s of, you know, the inspiration that 
was there but also the benefits--multiple benefits, years and 
years, decades of advancement in that single decade in medicine 
and other areas because of the inspiration that was there.
    Governor, I agree with you as well that we need to find 
some things that bring us together. This is one of those things 
that can bring us together. We all agree that we want to 
encourage our best and brightest to go into STEM education and 
STEM fields, and this is one of the ways that we can do it at 
an early age, capture their attention. I wonder if both of you, 
can NASA accomplish a mission to Mars without the international 
community or is that a prerequisite according to your research 
and report?
    Dr. Lunine. From the point of view of the committee's 
deliberations, in principle the United States could do it, but 
it would be extremely costly, and for a number of different 
reasons. Having significant international collaboration--and 
here we are talking about international collaboration on a 
scale in terms of percentage contributions that we have not 
even seen with the ISS, from a numbers standpoint, 
international collaboration is extremely valuable, both from 
the point of view of bringing new technical expertise support 
on an international basis for these types of activities and the 
symbolism of going forward with international partners to a new 
goal. All of these things make international collaboration 
highly desirable in this endeavor.
    Mr. Hultgren. Let me end with this and again offer this out 
to both of you. I wonder how emphasis on unfocused space 
technology development in this Administration hampered NASA's 
ability to focus on long-term goals of human exploration. In 
particular, I am interested in J-2X and how that impacted 
exploration missions in other areas, specifically kind of this 
unfocused space technology development? Any thoughts on that?
    Gov. Daniels. Well, no specific comment on that or any 
other one technology except to say that the committee strongly 
feels that an emphasis on capabilities has often led to dead-
ends or unproductive investments and that we really need to ask 
the question from the other end. Where are we going? What are 
the steps on the way to get there? And let that drive the 
technical and engineering requirements, and therefore the 
capabilities one develops.
    Dr. Lunine. Well, I would only add that your question cuts 
right to the heart of our report, which is a capabilities-based 
approach in our view is not going to get this nation or anyone 
to Mars, that we needed to have a pathways approach where 
technologies are developed in the service of the ultimate goal 
and the stepping stone intermediate goals to that end.
    Mr. Hultgren. My time is expired. Thanks, Chairman. Thank 
you again both. I really appreciate your work and look forward 
to an ongoing effort here together, hopefully move this 
forward.
    I yield back.
    Mr. Palazzo. I now recognize Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    Governor Daniels, Dr. Lunine--and I apologize; I just got 
here, and if this question has already been asked--but I wanted 
to ask you specifically in what sequence does NASA need to 
implement your recommendations in this committee's report for 
everything to take place smoothly?
    Gov. Daniels. Well, the sequence I think that matters most, 
Congressman, is the commitment to a pathways approach and the 
selection of a pathway, followed by the commitment to sustain 
funding for that pathway. I would put them in that order very 
purposefully because we did talk a little earlier, more money 
spent in the way we have been doing for the last several 
Administrations probably doesn't advance things very far.
    Mr. Veasey. And also, the report recommends a pathways 
approach over both a capabilities approach and the flexible 
path approach, but we don't need a flexible path approach to 
mission planning in order to deal with these unexpected changes 
in the budget and to take advantage of technology 
breakthroughs. Is that your opinion or you think that we--or it 
is the opposite of that?
    Dr. Lunine. Well, what the committee finds attractive about 
the pathways approach is that it streamlines the development of 
technologies in the sense that, again, to get to Mars as the 
ultimate horizon goal is going to be extraordinarily difficult, 
and so the technologies that will need to be developed are 
expensive and they are difficult.
    And so one wants--if one is committing as a nation to going 
to Mars--to adopt an approach that minimizes the number of 
additional technologies that have to be developed on the way to 
Mars because they are all expensive and they all of course take 
time, and that plays into the ultimate timeline of any program 
that leads to Mars. So the pathways approach is the way to 
minimize the total number of technologies that have to be 
developed in order to achieve the ultimate horizon goal, in 
this case, Mars.
    Flexible path approach, you may end up developing 
technologies that in the end are not useful and are not 
therefore, you know, ultimately contributing to the final goal 
that you want to get to.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    Mr. Palazzo. I thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Committee may have additional questions for you and we will 
ask you to respond to those in writing. The record will remain 
open for two weeks for additional comments and written 
questions from Members.
    The witnesses are excused and this hearing is adjourned.

    [Whereupon, at 11:36 a.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Governor Mitch Daniels

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. Jonathan Lunine

[GRAPHIC] [TIFF OMITTED] 
                              Appendix II

                              ----------                              


                   Additional Material for the Record


     Written statement submitted by Representative Donna F. Edwards

[GRAPHIC] [TIFF OMITTED] 
                                 <all>

</pre></body></html>
